<html>
<title> - PETER B. LYONS NOMINATION</title>
<body><pre>[Senate Hearing 112-5]
[From the U.S. Government Publishing Office]



                                                          S. Hrg. 112-5

                       PETER B. LYONS NOMINATION

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                                   TO

CONSIDER THE NOMINATION OF PETER B. LYONS, TO BE AN ASSISTANT SECRETARY 
                       OF ENERGY (NUCLEAR ENERGY)

                               __________

                             MARCH 8, 2011


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                       Printed for the use of the
               Committee on Energy and Natural Resources





                  U.S. GOVERNMENT PRINTING OFFICE
 65-652 PDF                 WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001









               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

RON WYDEN, Oregon                    LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            RICHARD BURR, North Carolina
MARY L. LANDRIEU, Louisiana          JOHN BARRASSO, Wyoming
MARIA CANTWELL, Washington           JAMES E. RISCH, Idaho
BERNARD SANDERS, Vermont             MIKE LEE, Utah
DEBBIE STABENOW, Michigan            RAND PAUL, Kentucky
MARK UDALL, Colorado                 DANIEL COATS, Indiana
JEANNE SHAHEEN, New Hampshire        ROB PORTMAN, Ohio
AL FRANKEN, Minnesota                JOHN HOEVEN, North Dakota
JOE MANCHIN, III, West Virginia      BOB CORKER, Tennessee
CHRISTOPHER A. COONS, Delaware

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               McKie Campbell, Republican Staff Director
               Karen K. Billups, Republican Chief Counsel
















                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Bingaman, Hon. Jeff, U.S. Senator From New Mexico................     1
Lyons, Peter B., Nominee to be an Assistant Secretary of Energy 
  (Nuclear Energy)...............................................     3
Murkowski, Hon. Lisa, U.S. Senator From Alaska...................     1

                                APPENDIX

Responses to additional questions................................    13

 
                       PETER B. LYONS NOMINATION

                              ----------                              


                         TUESDAY, MARCH 8, 2011

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:02 a.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Jeff 
Bingaman, chairman, presiding.

OPENING STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR FROM NEW 
                             MEXICO

    The Chairman. OK, why don't we get started? The committee 
meets this morning to consider the nomination of Pete Lyons, to 
be the Assistant Secretary of Energy for Nuclear Energy.
    Dr. Lyons is no stranger to this committee. He served as 
Senator Domenici's Science Advisor for 6 years and as a 
professional staff member on the committee staff for 2 years 
after that.
    Nor is he a stranger to nuclear energy issues. He holds a 
doctorate in Nuclear Physics. He worked at Los Alamos National 
Laboratory for 28 years. He served as a member of the Nuclear 
Regulatory Commission for four and a half years.
    Moreover he's already well acquainted with the office to 
which he has been nominated. He's been the principle Deputy 
Assistant Secretary for Nuclear Energy since 2009. He has 
served as the Acting Assistant Secretary for Nuclear Energy 
since last November.
    In addition to all that he's from New Mexico which is a 
major factor in his favor. I think the President made an 
excellent choice in nominating Dr. Lyons as he is superbly well 
qualified. I strongly support his nomination. I'm delighted to 
welcome him here this morning.
    Let me call on Senator Murkowski for any statement she 
wants to make.

        STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR 
                          FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman. Good morning. 
Good morning to you, Dr. Lyons. I'm pleased to have you with us 
here this morning. I join with the chairman's comments in my 
support of you.
    Senator Domenici was just mentioned here, as well as your 
background and your relationship with him. He is disappointed 
he couldn't be here today to introduce you. But he asked me to 
read the following statement.
    Mr. Chairman, if I may read this into the record, it is as 
follows.
    ``Mr. Chairman, ranking member, members of the committee, 
thank you for allowing me to be heard on the nomination of Dr. 
Pete Lyons, as Assistant Secretary of Energy for Nuclear Energy 
in abstentia. I want to assure Pete and everyone else that if I 
could be with you today, I would be there with bells on. It's a 
rare privilege to recommend to the committee today the approval 
of this nomination.
    To Pete, I want to say I have known you more than 20 years 
as a world class scientist at Los Alamos National Laboratory, 
as an elected local official and as a valued advisor. I have 
been truly fortunate to have had you by my side.
    To the committee, I say that it is rare indeed that we get 
a nominee of such exceptional qualifications and with such a 
record of service to his country. Rarely can we say, I 
recommend this nominee without the slightest doubt that he is 
deserving of your enthusiastic, favorable endorsement. You have 
his resume before you so I won't bore you with the details you 
already know.
    I will note for the record, however, that when Pete Lyons 
talks about nuclear technology, nuclear non-proliferation and 
nuclear weapons, everyone in any room in the world pays 
attention. He simply is one of the best in a discipline 
critical to America's energy and international security. 
America is lucky to have someone like Pete Lyons, who is 
willing to continue to serve his country in such a critical 
capacity.''
    That's Senator Domenici's statement. I whole-heartedly 
agree with that statement. I really don't think that I can add 
much, Dr. Lyons, other than to say that I too, appreciate your 
willingness to serve in this capacity.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    The rules of the committee that apply to all nominees 
require they be sworn in connection with their testimony.
    Could you please stand and raise your right hand?
    Do you solemnly swear that the testimony you're about to 
give to the Senate Committee on Energy and Natural Resources 
shall be the truth, the whole truth and nothing but the truth?
    Mr. Lyons. I do.
    The Chairman. Please be seated.
    Before you begin your statement let me ask 3 questions that 
we address to each nominee who comes before this committee.
    First question is will you be available to appear before 
this committee and other congressional committees to represent 
departmental positions and to respond to issues of concern to 
the Congress?
    Mr. Lyons. I will.
    The Chairman. Second question. Are you aware of any 
personal holdings, investments or interest that could 
constitute a conflict of interest or create the appearance of 
such a conflict should you be confirmed and assume the office 
to which you've been nominated by the President?
    Mr. Lyons. My investments, personal holdings and other 
interests have been reviewed both by myself and the appropriate 
ethics counselors within the Federal Government. I've taken 
appropriate action to avoid any conflicts of interest. There 
are no conflicts of interest or appearances thereof to my 
knowledge.
    The Chairman. Very good. Let me ask the third and final 
question.
    Are you involved or do you have any assets that are held in 
a blind trust?
    Mr. Lyons. No, sir.
    The Chairman. Alright. At this point our habit is to invite 
you to introduce any family members that you have with you, if 
you do have any?
    Mr. Lyons. Thank you, Senator. My son, David is here, also 
well known in your office. David.
    The Chairman. We welcome David to the hearing as well. At 
this point why don't you go ahead with any statement that 
you've prepared to give to the committee, Dr. Lyons?

    STATEMENT OF PETER B. LYONS, NOMINEE TO BE AN ASSISTANT 
              SECRETARY OF ENERGY (NUCLEAR ENERGY)

    Mr. Lyons. Thank you.
    Chairman Bingaman, Ranking Member Murkowski and 
distinguished members of the committee, it's an honor and a 
privilege to appear before you today as President Obama's 
nominee for Assistant Secretary for Nuclear Energy within the 
Department of Energy. It's a special honor for me to appear 
before this committee. I worked with members and staff of this 
committee for 8 years while I was in Senator Domenici's 
personal office and later when I served on the staff of this 
committee.
    I originally came to the Senate on a detail from Los Alamos 
National Lab where I'd worked for nearly 30 years. In 2005 I 
was nominated to the NRC where I served until my term ended in 
June of 2009. In August 2009 I was honored to accept a request 
from the Administration to join the Department of Energy as 
Principle Deputy to Assistant Secretary Dr. Pete Miller, again 
in the Office of Nuclear Energy. It's been a pleasure. It's 
been an honor to work with Secretary Chu, Deputy Secretary Dan 
Poneman, Assistant Secretary Miller and the dedicated team at 
the department.
    The President has clearly articulated his goal of a clean 
energy future. Has emphasized that nuclear power must be a 
significant component of that future. In order to reach this 
clean energy future nuclear energy technologies must be 
carefully evaluated to enable the public, the Congress and the 
utility industry to select the best energy options for our 
Nation.
    Last year, Dr. Miller and I worked to develop the Nuclear 
Energy R and D Roadmap. A document that I believe will guide 
the American public and the department for many years into the 
future. In that roadmap we focused on 4 objectives around which 
our entire program is organized.
    Those objectives are to develop technologies to improve the 
reliability, sustain the safety and extend the life of current 
reactors.
    Second, to develop improvements in the affordability of new 
reactors to enable nuclear energy to help meet the 
Administration's energy security and climate change goals.
    Third, to develop sustainable fuel cycles.
    Fourth, to understand and minimize the risks of nuclear 
proliferation and terrorism.
    The corresponding R and D programs in our recently released 
Fiscal Year 2012 budget request reflect those objectives.
    My experience for almost 5 years as an NRC Commissioner and 
now for a year and a half in a leadership role with the 
Department's Office of Nuclear Energy provides a foundation on 
which, if confirmed, I believe I can continue to serve the 
Nation in the field of nuclear energy.
    While the NRC and the Department of Energy have distinctly 
different roles they also have important similarities. They 
share 2 sides of the same fundamental goal to enable safe, 
secure use of nuclear power for the United States. The NRC has 
the regulatory focus and responsibility. While the DOE has the 
research development and deployment focus. But there are times 
when it is appropriate for the 2 organizations to work together 
while carefully respecting the responsibilities of each.
    I regard my time at Los Alamos, on Senate staff, at the 
NRC, 42 years in total, as contributions to our national 
security. Over those years and through many different venues 
and roles I've worked to try to make our Nation stronger, 
safer, cleaner, more competitive and more secure. My desire to 
continue to serve after those years, if confirmed is simple to 
explain. I want an even better world for my children and my 
grandchildren.
    Thank you and I look forward to addressing your questions.
    [The prepared statement of Mr. Lyons follows:]
   Prepared Statement of Peter B. Lyons, Nominee to be an Assistant 
                  Secretary of Energy (Nuclear Energy)
    Chairman Bingaman, Ranking Member Murkowski, and distinguished 
Members of the Committee, it is an honor and a privilege to appear 
before you today as President Obama's nominee for Assistant Secretary 
for Nuclear Energy within the Department of Energy.
    It is a special honor for me to appear before this Committee. I 
worked with the Members and staff of this Committee for eight years 
while I was in Senator Domenici's personal office, and later when I 
served on the staff of this Committee. I originally came to the Senate 
on a detail from Los Alamos National Laboratory, where I worked for 
nearly 30 years.
    In 2005, I was nominated to the Nuclear Regulatory Commission 
(NRC), where I served until my term ended in June of 2009. At the NRC, 
I focused on the safety of operating nuclear reactors and on the 
importance of learning from operating experience, even as new reactor 
licensing and possible construction emerged. My work emphasized that 
NRC and its licensees remain strong and vigilant components of the 
Nation's integrated defenses against terrorism. I was a consistent 
voice for improving partnerships with international regulatory 
agencies. I also emphasized active and forward-looking research 
programs to support sound regulatory decisions, address current issues 
and anticipate future ones.
    In August of 2009, I was honored to accept a request from the 
Administration to join the Department of Energy as principal deputy to 
Assistant Secretary, Dr. Pete Miller, in the Office of Nuclear Energy. 
It's been a pleasure to work with Secretary Chu, Deputy Secretary Dan 
Poneman, Assistant Secretary Miller, and the dedicated team at the 
Department. Working together, I think we've made some tremendous 
strides in the past two years, including the award of the first 
conditional loan guarantee for a new nuclear reactor project from the 
Department's Loan Programs Office--a program authorized by this 
Committee in 2005.
    The President has clearly articulated his goal of a clean energy 
future and has emphasized that nuclear power must be a significant 
component of that future. In order to reach this clean energy future, 
nuclear energy technologies must be carefully evaluated to enable the 
public, Congress, and the utility industry to select the best energy 
options for our nation.
    Last year, Dr. Miller and I worked to develop the Nuclear Energy 
R&D Roadmap, a document that I believe will guide the American public 
and the Department for many years into the future. In that Roadmap, we 
focused on four objectives, around which our entire program is 
organized. Those objectives are to:

          1. Develop technologies and other solutions that can improve 
        the reliability, sustain the safety, and extend the life of 
        current reactors.
          2. Develop improvements in the affordability of new reactors 
        to enable nuclear energy to help meet the Administration's 
        energy security and climate change goals.
          3. Develop sustainable nuclear fuel cycles.
          4. Understand and minimize the risks of nuclear proliferation 
        and terrorism.

    The corresponding R&D programs in our recently-released fiscal year 
2012 budget request reflect these objectives.
    There is one new program in particular that I would like to 
highlight--small modular reactors (SMRs). We first proposed the SMR 
program in FY2011 and we have expanded the proposal in the FY2012 
budget request. Secretary Chu penned an op-ed in the Wall Street 
Journal last year where he laid out some of the reasons why we are so 
excited about the prospect of small modular reactors. It's no secret 
that large reactors face significant financing challenges. But if we 
can reduce the capital-at-risk with small reactors, and if the reactors 
can be built in factory settings, with forgings done here in the United 
States, and shipped to plant sites where they are essentially plugged 
in, that could offer advantages from a number of perspectives. As a 
result, we have proposed a Light Water Reactor SMR Licensing Technical 
Support program that is a near-term, multi-year initiative focused on 
cost-sharing for first-of-a-kind engineering associated with design 
certification and licensing activities. We think this program can 
accelerate the availability of SMRs to help meet the nation's need for 
low-carbon power, and provide an American-made platform for U.S. 
companies to export reactors and compete in the international 
marketplace.
    A second, innovative Nuclear Energy program highlighted in the 
President's recent State of the Union address is the creation of a 
nuclear energy ``hub''. The nuclear energy Hub will be the first time a 
working nuclear reactor has been simulated using modern computational 
tools. I am very excited about the prospects for the Hub. Last year, we 
announced the winning team for the Hub, headed by Oak Ridge National 
Laboratory, and this May we will have the ribbon-cutting ceremony for 
the opening of their new collaboration site. Simulations of both 
existing and future nuclear reactors hold great promise for further 
optimizing the U.S. nuclear fleet.
    Turning to the back end of the nuclear fuel cycle, a little over a 
year ago, Secretary Chu announced the formation of the Blue Ribbon 
Commission (BRC) on America's Nuclear Future to study and make 
recommendations on management of used nuclear fuel. The BRC has 
traveled around the United States, as well as to other countries that 
have had greater success in moving forward with a disposition path for 
nuclear waste. The Commission is due to release its interim report 
around the middle of this year. If confirmed, one of my highest 
priorities will be to tackle this critical set of issues.
    My experience for almost five years as an NRC Commissioner and now 
for a year and a half in a leadership role with the Department's Office 
of Nuclear Energy provides a strong foundation on which, if confirmed, 
I believe I can continue to serve the nation in the field of nuclear 
energy. While the Nuclear Regulatory Commission and the Department of 
Energy have distinctly different roles, they also have important 
similarities; they share two sides of the same fundamental goal: to 
enable safe, secure use of nuclear power for the United States. The NRC 
has the regulatory focus and responsibility while the DOE has a 
research, development, and deployment focus. But there are times when 
it is appropriate for the two organizations to work together, while 
carefully respecting the responsibilities of each.
    I regard my time at Los Alamos, on Senate staff, and at the Nuclear 
Regulatory Commission--42 years in total--as contributions to our 
national security. Over those years, through many different venues and 
roles, I've tried to make our nation stronger, safer, cleaner, more 
competitive, and more secure. My desire to continue to serve after 
those years, if confirmed, is simple to explain--I want an even better 
world for my children and grandchildren.
    Thank you and I look forward to addressing your questions.

    The Chairman. Thank you very much.
    Let me ask a couple of questions. The Department's fiscal 
year 2012 budget requests $67 million for small modular reactor 
development. Last year Senator Murkowski and I introduced a 
bill to authorize a small modular demonstration program at the 
Department and we had Senator's Udall and Landrieu and Risch 
and others co-sponsoring that. It was unanimously reported from 
the committee.
    My question is whether you have had a chance to look at 
that bill and do you believe enactment of that bill would 
provide the Department with useful authority in developing 
small modular reactors?
    Mr. Lyons. Senator Bingaman, we certainly very much 
appreciate the interest and support from the committee for 
small modular reactors. Our level of enthusiasm at the 
Department is very high. This was reflected in an editorial 
that Secretary Chu penned for the Wall Street Journal within 
the last few months on this subject.
    We regard SMRs as providing at least the possibility of an 
important new paradigm for nuclear energy possibilities within 
the United States. We look forward to the opportunities that 
would be enabled by the FY12 budget to move ahead with a 
multiyear, competitive, cost share program to evaluate the 
small modular reactors.
    The Chairman. I guess the more specific question though is 
whether the legislation that we introduced in the last Congress 
is a useful additional authority to the Department in doing 
what you would like to do in this area or whether you think you 
have full authority to do what you want to do without it?
    Mr. Lyons. I should probably review the bill again. My 
memory from last year is that that bill was regarded very 
favorably and would indeed be of assistance. But I'd like the 
opportunity to review the current bill as it's introduced.
    The Chairman. Alright. We would appreciate that.
    Secretary Chu shut down the Office of Civilian Radioactive 
Waste Management and transferred the functions of that office 
to the General Counsel and the Offices of Nuclear Energy and 
Legacy Management. I guess my first question is what's the role 
of the Office of Nuclear Energy on nuclear waste at this point?
    Mr. Lyons. Within the Office of Nuclear Energy we have a 
broad research and development program exploring a number of 
different approaches to the back end of the fuel cycle. I could 
go into additional detail if you would like. But I might also 
note that we're, of course, paying great--we are waiting with 
great interest the report of the Blue Ribbon Commission on 
America's Nuclear Future.
    We anticipate the interim report to be in July of this 
year. We're very optimistic that that report, both the interim 
and the final, will provide some very important guidance to the 
R and D programs that we have within my office.
    The Chairman. Now once that report is issued, the report of 
this Blue Ribbon Commission, do you expect to propose a new 
waste management program to Congress based on the 
recommendations of that report?
    Mr. Lyons. Certainly, Senator, we will--we look forward 
toward studying that report in great detail. There may well be 
elements of that report that would suggest some changes in our 
program. But I think until we see the report it's a little bit 
premature to say exactly how we would respond.
    I can assure you we will be studying that report very, very 
carefully and with great expectations.
    The Chairman. Alright.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    I'd like to ask a couple questions about the nuclear waste 
fund and the collection of fees. The Nuclear Waste Policy Act 
expressly identifies Yucca Mountain as the sole permanent 
repository. It also directs the Secretary to collect or to 
propose an adjustment of fees if the costs are insufficient to 
meet the costs of construction of the repository.
    So with all that is going on with Yucca, including the 
attempted withdrawal of the licensed application, do you 
believe that the fees that have been collected thus far and 
deposited in the nuclear waste fund are in excess of the amount 
needed to meet the repository's cost? Is there an adjustment 
that would be required at this point?
    Mr. Lyons. On the specific question, Senator, of collection 
of the fee. Let me start from the perspective that the 
Department recognizes that we have a continuing responsibility 
to provide for the eventual disposition of the used fuel and 
the defense wastes. With that continuing responsibility I think 
it is reasonable to expect that there needs to be continuing 
funding extracted to enable that eventual disposition.
    On the specific question of the details of the fee, that's 
been reviewed by our General Counsel. Their view is that at 
this point in time there is no basis on which to propose either 
an increase or a decrease in the fee. So the fee has continued 
to be collected.
    The Department is required to annually review that fee. 
Again, the General Counsel would be involved in that review.
    Senator Murkowski. But what you're saying is that you don't 
think that the fee needs to be adjusted at this point in time 
or we're not certain as to whether or not it is appropriate?
    Mr. Lyons. The opinions from our General Counsel, and I'm 
certainly not a lawyer. But as I understand the report of the 
General Counsel there is no basis to suggest a change. 
Therefore the fee has continued unchanged.
    Senator Murkowski. The contractual obligation to collect 
the spent nuclear fuel from the individual nuclear plants 
started back in 1998. Do we know how much the government has 
paid out for breaching the contract thus far? Do we have a 
sense as to what that number is?
    Mr. Lyons. The most recent number, Senator, that I saw on 
that was slightly below one billion.
    Senator Murkowski. Do we have any information on how many 
additional cases might be before the Federal court, and what 
the amount of that liability might be?
    Mr. Lyons. The General Counsel has prepared an estimate of 
future liabilities anticipating an opening of a future 
repository in 2020. I believe that estimate is about $15 
billion.
    As to the details of number of cases, I don't have that 
information. I think it would perhaps be difficult to obtain 
given the nature of the cases and that there tends to be 
appeals. Again, I'm not a lawyer. But I think it would be 
difficult to define how many cases are operating at any one 
time.
    Senator Murkowski. So do we have an idea--just even in the 
ballpark--of how much we anticipate the final tally will be 
when the government finally takes title of the spent fuel?
    Mr. Lyons. Again the General----
    Senator Murkowski. About $16 billion right now between what 
has been paid and what is anticipated in terms of liability. 
But do we even have a guess?
    Mr. Lyons. That is based on a 2020 repository opening. 
Again, until we see the Blue Ribbon Commission report, until 
both the Department and potentially the Congress act on 
whatever is in that report, I can't speculate on exactly what 
the future path will be. But the estimate I provided was based 
on 2020.
    Senator Murkowski. OK. Alright.
    Let me ask you about the situation with Yucca, recognizing 
that even with Yucca Mountain off the table we're still going 
to need a permanent repository for the spent fuel. Do you 
support an interim storage program to meet the government's 
contractual obligations, to end these lawsuits?
    Mr. Lyons. Senator, at least for the next few months I 
think we would all be well served to wait for the report of the 
Blue Ribbon Commission. They may well recommend such an interim 
storage facility. They may also recommend, I don't know. But 
they may recommend alternative management systems that might be 
used to enable whatever suggestions they make.
    I think at this point in time given that that interim 
report will be available before the end of July. I think it 
behooves all of us to wait, see what they do recommend and then 
certainly within the Department and within Congress evaluate 
what the next steps will be.
    Senator Murkowski. I think we're all waiting for it. 
Concerned though, of course, that as we wait these liabilities 
continue to mount and to accrue. We still don't have that 
permanent repository.
    Thank you, Mr. Chairman.
    The Chairman. Senator Franken.
    Senator Franken. Thank you, Mr. Chairman. Both the chairman 
and the ranking member have spoken to a couple of areas that I 
want to talk to you about. I wanted to ask you to look 20 years 
down the road and what technologies do you see will be, we will 
be using to reduce nuclear waste. But it sounds like your 
answer would be let's wait til July. Right?
    Mr. Lyons. As far as the short term, sir. Yes, I would 
agree on the wait til July. As far as the longer term I 
indicated we have a robust research program looking at a number 
of different options.
    I can describe that in greater detail and it might provide 
some answers if you'd like me to go in that direction.
    Senator Franken. Sure.
    Mr. Lyons. Within options for the back end of the fuel 
cycle we're looking at three divergent approaches.
    One is the once through system which is what we have been 
on in this country where fuel would be used once in a nuclear 
reactor. The used fuel would go directly to a repository.
    There also has been some research in this country on what 
we might call a full reprocessing system where there would be 
multiple reprocessing steps, multiple exposures in different 
types of reactors to extract the maximum amount of energy from 
the original fuel.
    Senator Franken. I'm sorry but would that be done without 
producing any kind of fuel that could be used in a 
proliferation, in nuclear proliferation?
    Mr. Lyons. That was going to be my next sentence.
    Senator Franken. OK. Sorry.
    Mr. Lyons. That concern with full processing is that at 
least with existing technologies there are significant 
proliferation concerns to say nothing of significant 
environmental concerns from the standpoint of different wastes 
that are produced along the way. So whether it will make sense 
even with substantial research to ever move toward full 
reprocessing, I simply don't know at this point in time.
    We also are trying to explore a range of possibilities 
between those 2 divergent options that might involve far less 
processing of the fuel, avoid proliferation concerns and while 
not utilizing all of the energy in the fuel use a lot more than 
we are now.
    To put these numbers in perspective the once through system 
uses about 0.6 percent of the energy content of the fuel. Full 
reprocessing is 100 percent essentially.
    The in the middle stuff, what we're calling modified open 
cycle we think might get up to 10 to 20 percent utilization but 
without the complications of full reprocessing. Again, we'll be 
guided by the Blue Ribbon Commission.
    Senator Franken. OK. I was going to ask as the chairman did 
about modular reactors. How long do you think it might be until 
they're deployed til we actually have a modular reactor that's 
working, up and working?
    Mr. Lyons. The first thing we have to do is start this cost 
share program. We're, at the moment, unable to do that until we 
get out of CR. I think it is still possible to realize 
operation on the grid in 2020 with a possibility of 2019.
    Senator Franken. OK. I just wanted to ask a question 
about--this was actually brought up to me by a student at the 
University of Minnesota, Morris. I'm new on this committee, so 
I haven't been studying nuclear as much as I will be.
    Can you tell me what the role of thorium may be and what 
the thinking is on thorium as a fuel? What the advantages are? 
What the disadvantages are? What the pros and cons are of 
thorium?
    Mr. Lyons. Might start from the perspective that the first 
commercial reactor operated in this country at Shippingport was 
based on thorium fuel. Thorium fuel was extensively evaluated 
in the early days of the development of nuclear reactors. 
Thorium is substantially more abundant than uranium. That may 
present a benefit.
    In terms of looking at other attributes of the fuel cycle 
at least the studies that we have done to date and we have 
ongoing studies do not show a dramatic benefit for thorium. 
There may be slight differences in the waste but they do not 
appear to be large. In addition while we are certainly 
interested in continuing to look at thorium as a possibility 
and particularly a possibility for the future. The fact remains 
that we have an entire fuel cycle built up around uranium. It 
would be a dramatic shift and a very costly shift to move on 
any sort of short time scale to thorium.
    But is it interesting? Yes. Some countries, India for 
example, has large quantities of thorium and virtually no 
uranium have been extremely interested in the thorium cycle.
    Senator Franken. OK.
    Mr. Lyons. That's at least a little bit.
    Senator Franken. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Senator Murkowski, did you have any 
additional questions?
    Senator Murkowski. Just one very quickly, Mr. Chairman.
    Relating to nuclear workers: we talk a lot about an aging 
workforce. We haven't seen anything new happen, unfortunately, 
in nuclear, despite the renaissance that Senator Domenici 
dreamed of and was certainly working toward. Can you give some 
kind of an overview of what educational programs your office is 
engaged in as we try to develop the next generation of nuclear 
workers?
    Mr. Lyons. I thank you, Senator. I too, have been very, 
very interested in developing the future workforce. There's 
substantial numbers of retirements anticipated in that 
workforce. Whether one visits any of the National Laboratories 
or nuclear power plants far too many have the grey hair that I 
have.
    For those reasons, yes, we have been extremely interested 
in programs that prepare the future generation. Within the 
Nuclear Energy Office we have provided up to 20 percent of our 
R and D funds as grants to universities in a variety of 
different ways, R and D grants, infrastructure development 
grants. Over the last 2 years we've provided $110 million to 
universities spread across the United States for those 
programs.
    In addition at least through, I hope, this Fiscal Year, we 
have had a program for scholarships and fellowships. That's 
called the Integrated University Program. That is a program 
that asks that we coordinate among the NNSA part of the 
Department of Energy, the NRC and my office. Each of those 3 
entities receive funding for scholarships and fellowships and 
coordinate the way in which those scholarships and fellowships 
are awarded.
    Within the Office of Nuclear Energy, for example, last year 
we awarded 110 scholarships and fellowships. Now within the 
FY12 budget that Integrated University Program is zeroed for my 
program, for, assuming I'm confirmed, the NNSA Program and the 
NRC Program. The rationale for that as explained to me is that 
the Administration believes that there will be ample motivation 
for students to enter those programs. Having said that, I have 
spoken frequently in support of all of these programs.
    Senator Murkowski. I have a son in college considering 
where he might want to land. The thing that guides his 
decisionmaking process is where the jobs are. If a young person 
doesn't believe that he or she is going to see the activity 
within the nuclear industry, that person is going to take his 
or her energy and talents elsewhere.
    I'm concerned that as we try to ramp up and truly build out 
our nuclear industry, the trained workforce is not timed right. 
I appreciate the focus that you have given to it. I think that 
this is something that we clearly need to watch closely.
    Mr. Lyons. I very much share your concern that the future 
workforce is vitally important. Even if your son looks only at 
the retirements anticipated with the existing nuclear plants 
there's thousands of jobs available over the next few years. If 
we can move toward additional construction in this country 
there will be many more job opportunities.
    Senator Murkowski. I'll let him know.
    Thank you, Mr. Chairman.
    The Chairman. Senator Franken, did you have additional 
questions?
    Senator Franken. No, Mr. Chairman.
    The Chairman. Alright. Pete, thank you very much. Let me 
just advise members that they will have until 5 o'clock 
tomorrow afternoon to submit any additional questions for the 
record.
    Then we will hope to act quickly on your nomination and 
report it to the full Senate. But that will conclude our 
hearing. Thank you very much.
    [Whereupon, at 10:31 a.m., the hearing was adjourned.]
                                APPENDIX

                   Responses to Additional Questions

                              ----------                              

    Responses of Peter B. Lyons to Questions From Senator Murkowski
    Question 1. The Light Water Reactor SMR Licensing Technical Support 
program anticipates a cost of $452 million over five years. Do you 
expect this program to run longer than five years or do you believe two 
SMR designs will have made it through the licensing process in that 
time frame? What role can the Department of Energy play in the 
licensing process?
    Answer. The Department expects the program to run for five years 
and expects that the two SMR designs will have made it through the most 
critical steps of the licensing process in that time frame. The 
Department expects that SMR vendors will have sufficiently learned from 
interaction with the Nuclear Regulatory Commission (NRC) and that 
continued support by DOE will not be necessary after the five year 
program. It is anticipated that industry will have completed its 
licensing submittals on a schedule that supports completion of NRC 
design certification, construction, and operating license reviews soon 
after completion of this program.
    The Department plans to work with the NRC and industry to 
facilitate any changes to the current licensing framework that may be 
appropriate based on the features and designs of SMRs in general. The 
Department intends to provide the analytical, computational and 
experimental resources to support SMR licensing.
    Question 2. Could you provide more detail on what types of 
technologies you expect the new Nuclear Energy Enabling Technologies 
program to develop and support? Is it necessary to have a new, separate 
program from the Reactor Concepts and Fuel Cycle programs to achieve 
these goals?
    Answer. The mission of the Nuclear Energy Enabling Technologies 
(NEET) program is to conduct research and development to deliver 
crosscutting technologies that directly support and enable the Office 
of Nuclear Energy's (NE) broad research and development portfolio and 
to encourage the development of transformative, ``outside-the-box'' 
innovations in nuclear energy science and engineering.
    The NEET program will conduct crosscutting research and technology 
development relevant to the various reactor and fuel cycle concepts 
within the scope of NE research and development (R&D) programs that 
offer substantially improved economic and safety performance. The NEET 
program will be able to coordinate efforts on common issues and avoid 
duplication of efforts in technology development in separate programs. 
The NEET program is intended to carry out research that is beyond the 
scope of individual NE R&D programs, lead and coordinate research that 
is needed by several NE R&D programs, and identify and deliver enabling 
technologies to achieve critical steps in technology deployment. The 
activities undertaken in this program complement those within the 
Reactor Concepts Research Development & Demonstration and the Fuel 
Cycle R&D programs by providing a mechanism for pursuing broadly 
applicable R&D in areas that may ultimately benefit specific reactor 
and/or nuclear fuel concepts. Reactor and fuel cycle designs are 
currently limited by technologies at the subsystem and component level, 
and NEET research is aimed at providing new options to the system level 
designs.
    Through coordinated R&D, this program will ensure that resulting 
technologies and solutions are scalable to individual reactor and fuel 
cycle applications (e.g., development of high-temperature resistant 
materials and radiation-hardened electronics, proliferation risk 
assessment of different nuclear fuel cycle options, etc.). This R&D 
will ultimately result in lower costs for needed capabilities across NE 
R&D programs, better use and coordination of expertise and leveraged 
facilities across the enterprise, and assurance that the best 
technologies are available for nuclear energy deployments when needed.
    Examples of the types of technologies expected in NEET crosscutting 
areas include the following:

  <bullet> New, innovative reactor materials concepts for fuel cladding 
        and structural materials well beyond those currently considered 
        by most industrial interests will be explored to provide alloys 
        with improved performance over traditional materials. Improved 
        performance may include a 5- to 10-fold increase in strength, 
        or increased maximum operating temperature by over 200 Celsius 
        (C), with a service period of at least 80 years.
  <bullet> Advanced manufacturing technologies that could provide 
        simplified, standardized, and labor-saving outcomes for 
        manufacturing and civil works processes (both technologies and 
        methods) for new nuclear component manufacturing and plant 
        fabrication will be investigated. For example, concrete 
        installation is one of the most costly (up to $1 million per 
        day) and time-consuming aspects of building a new nuclear power 
        plant. Potentially, the use of high-strength concrete or steel-
        concrete composite wall construction could significantly reduce 
        construction cost and schedules. Advanced instrumentation and 
        sensors that could: (1) operate in the temperature regimes and 
        harsh environment (e.g., 1000C gas environment, liquid metals) 
        that preclude the cross-compatibility of existing 
        instrumentation, (2) directly measure primary process 
        parameters that would otherwise be inferred or measured from a 
        distance with a corresponding loss in precision and increase in 
        uncertainty, (3) minimize measurement drift that can support 
        longer intervals between maintenance and service outages, as 
        envisioned for advanced reactors, and (4) include electronics 
        that are, or can be made to be, radiation tolerant due to their 
        proximity to the nuclear reactor core and back end of nuclear 
        fuel cycle process.
  <bullet> Advanced modeling and simulation tools are being developed 
        that will provide a greater understanding of the long-term 
        performance of fuels both in the reactor during operations and 
        once discharged (useful to regulators, designers, and 
        operators). For example, the Advanced Multi-Physics (AMP) code 
        being developed at the Oak Ridge National Laboratory models 
        fuel at the ``pin'' level in three dimensions with very high 
        temporal and spatial resolution. The AMP code is presently 
        being considered for use in the virtual reactor model being 
        developed by the Energy Innovation Hub for Modeling & 
        Simulation of Nuclear Reactors.

    Question 3. If the United States were to start construction on a 
nuclear fuel recycling facility today, how long would it take to 
construct and for how much?
    Answer. At present, the Department does not see a need to construct 
a nuclear fuel recycling facility for the foreseeable future. Instead, 
the Department is focusing on research and development of advanced 
technologies which could be used to treat nuclear fuel.
    If the current research and development program proceeds as 
planned, the Department would eventually need to construct a fuel cycle 
research laboratory capable of receiving, storing, and separating 
commercial fuel assemblies and remanufacturing. Existing facilities 
within the United States are not sufficient to conduct these research 
and development activities. It is premature to estimate the potential 
cost and schedule for such a facility.
    Question 4. What is the Department doing to ensure the scientific 
data and information gained during the Yucca licensing process is 
preserved for future repository development?
    Answer. DOE currently maintains the approximately 3.65 million 
electronic documents that comprise the Licensing Support Network (LSN) 
collection on file servers located in northern Virginia, which are 
routinely backed up on tape, and are currently searchable and 
retrievable through an NRC hosted web portal. Once there is a non-
appealable final decision and the licensing proceeding is terminated 
the LSN collection will be archived in a manner that complies with the 
Federal Records Act and with National Archives and Records 
Administration (NARA) guidance. NARA is the agency authorized to 
determine how long records are maintained. The archived LSN collection 
will be searchable and retrievable. In accordance with the Federal 
Records Act, DOE submitted a ``Request for Records Disposition 
Authority'' (Standard Form 115) to NARA for the LSN collection and is 
awaiting NARA's decision on the LSN record disposition schedule.
    In addition to the LSN, DOE's Office of Legacy Management (LM) has 
been tasked with ensuring that all other technical databases used by 
the Office of Civilian Radioactive Waste Management (OCRWM) will remain 
available to support a restart in the licensing process, should that 
occur. Like the LSN, LM will also maintain these databases until there 
is a non-appealable order. Even after all appeals have been exhausted, 
LM will preserve the technical content contained in these databases at 
the LM storage facilities.
     Responses of Peter B. Lyons to Questions From Senator Portman
    Question 1. Do you agree with Secretary Chu's comments in the 
Senate Budget Committee's hearing on the President's Fiscal Year 2012 
budget request for the Department of Energy, on March 2 of this year 
that supporting a domestic enrichment technology is important for our 
nation's energy and national security?
    Answer. Yes, I agree with Secretary Chu about the importance of a 
domestic uranium enrichment capacity as a critical element of the fuel 
cycle for nuclear power reactors. In support of this critical area, the 
Department has made available $4 billion in loan guarantees for the 
deployment of advanced enrichment technology in the United States. In 
May 2010, AREVA was granted a conditional loan guarantee to construct a 
centrifuge enrichment facility in Idaho. In addition, USEC, Inc. has 
publicly announced that the Department is reviewing its application for 
the American Centrifuge Plant.
    Question 2. Do you agree with Secretary Chu's comments in the 
Senate Budget Committee's hearing on the President's Fiscal Year 2012 
budget request for the Department of Energy, on March 2 of this year 
that having a domestic production capability for tritium is vital to 
the U.S. arsenal?
    Answer. Yes, I agree with Secretary Chu's comments in the Senate 
Budget Committee hearing earlier this year regarding the importance of 
a domestic tritium production capability.
    Question 3. As you know, I am concerned about the slow pace of 
deployment of loan guarantees for nuclear energy projects under the 
federal loan guarantee program. Nuclear power is the only base-load 
emissions-free option that we have. Due to the scale of the projects, 
much of the work needed to build the plants will be done domestically; 
this means jobs and economic development will be created here at home.
    The low cost of natural gas, the slow growth of the U.S. economy, 
and an uncertainty over a future price on carbon are certainly 
discouraging many companies from making the substantial investment 
needed to build a traditional nuclear power plant. Yet there is still 
significant interest in nuclear. The Nuclear Regulatory Commission has 
received applications for 26 reactors. And the $18.5 billion that the 
Department of Energy has available for nuclear projects under the 
Federal Loan Guarantee Program, while not distributed, is fully 
prescribed.
    While Secretary Chu stressed the need for a Clean Energy Standard 
to drive market draw for nuclear, it appears to me that if we can just 
get the loan guarantee program operating efficiently, we could at least 
get three or four large scale nuclear projects off the ground. In your 
opinion what steps should the federal government be taking to jumpstart 
nuclear production capabilities today?
    Answer. There are several things that Federal government could do 
to jumpstart our domestic nuclear energy capability. The administration 
has requested an additional $36 billion in loan guarantee authority, 
which would bring the total amount to $54.5 billion. That should be 
enough to help support 6 to 9 new reactors. The Department has also 
proposed an aggressive small modular reactor (SMR) program that would 
help accelerate the availability of SMRs for the US market and 
international markets. Both the larger nuclear reactors, as well as the 
smaller ones, would enjoy significantly greater attraction from private 
investors if the federal government were to put into place a mechanism 
to at least partially account for the external costs associated with 
fossil fuel use. President Obama's call for a clean energy standard, 
for example, would go a long way toward jumpstarting nuclear production 
capabilities.
    Question 4. I want to thank you for attending The Ohio Nuclear 
Taskforce Roundtable on September 27, 2010, in Columbus, Ohio. As you 
know, the taskforce was a collaboration of stakeholders including: 
representation from the nuclear power industry, Ohio's major electric 
utilities, seven universities and community colleges, nuclear supply 
chain companies, engineering and technology resource organizations, and 
nongovernmental organizations. They had a unified goal: make 
economically viable nuclear power a major component of the nation's 
future energy profile.
    One of the report's recommendations was the Department of Energy 
should conduct an enterprise study on the future market potential of 
the U.S. nuclear power supply industries. The questions that were to be 
answered in such a study included: How many power plants will be 
constructed and over what period of time, what will be the volumes of 
productions for given products, what are the market niches in which 
U.S. companies can best compete, what are the trade skills and 
manufacturing requirements necessary to make a company highly 
competitive in a particular product group, and what are the costs 
associated with upgrading to become a nuclear-grade producer? Can you 
tell me if the Department of Energy moved forward on conducting such a 
study? Does the Department of Energy have the resources to conduct such 
a study?
    Answer. It was my pleasure to attend the Ohio Nuclear Taskforce 
Roundtable. I appreciated the opportunity to receive valuable feedback 
and suggestions on the role of nuclear power as an economically viable 
component of the nation's future energy profile. The Office of Nuclear 
Energy (NE) is not currently pursuing an enterprise study on the future 
market potential of the U.S. nuclear power supply industries, though it 
is working on similar and related research, such as the market 
potential for small modular reactors. DOE has adequate resources to 
conduct such a study, and will evaluate this opportunity within the 
context of the NE mission and strategic plan.
     Responses of Peter B. Lyons to Questions From Senator Barrasso
    Question 1. Table 8 of the Department's Excess Uranium Management 
Plan lays out a schedule for uranium transfers, sales, and barters. The 
schedule follows a ``ramp-up'' policy that gradually increases to 10 
percent of the market in 2013.
    Question 1a. Are you aware of this proposed ramp up?
    Question 1b. Why is the Department abandoning this schedule?
    Question 1c. Why did the Department include Table 8 in the 
Management Plan if it does not plan to abide by it?
    Answer. The Department's 2008 Excess Uranium Inventory Management 
Plan (Plan) provided guidelines for the management of the Department's 
excess uranium inventory and clearly stated that it described planned 
and future projects under consideration, as envisioned in 2008, and 
might change in the future. The Plan was a 10-year estimate of future 
sales and transfers, as illustrated in Table 8, and it contained the 
provision that situations could arise where DOE's actions could change 
in response to unforeseen developments. Nevertheless, as a result of 
close coordination among the offices within DOE responsible for the 
disposition of excess uranium inventories, the Department's total 
actual transfers, including transfers for accelerated cleanup services 
and for NNSA's pre-existing commitments, represented a ramp up of 3.0 
percent and 5.8 percent of average U.S. reactor demand in 2009 and 
2010, respectively. Accordingly, the material actually transferred was 
significantly below the 10 percent guideline set forth in the Plan. It 
should be noted that the Secretary's most recent Determination, 
announced on March 2, 2011, established a clear ceiling on both an 
annual and a quarterly basis for the amount of uranium that could be 
transferred for accelerated cleanup services through the third quarter 
of calendar year 2013.
    Question 1d. Will the Department seek any additional barters, 
transfers, or sales of its excess uranium over the next three years? 
Does this include barters, transfers, or sales of uranium tails? Does 
this include agreements to enrich uranium tails?
    Answer. At this time, the Secretary has not authorized the 
Department to make any transfers beyond the planned NNSA transfers to 
fund the down blending of highly enriched uranium and the transfers to 
fund the Portsmouth site cleanup work authorized by the March 2, 2011 
Secretarial Determination. Depending on programmatic and policy goals 
and needs, the Department may seek additional transfers, including 
those associated with the re-enrichment of uranium tails. However, all 
transfers will be consistent with the policies and guidelines set forth 
in the Uranium Management Plan and any transfers that fall within the 
parameters of section 3112(d) of the USEC Privatization Act will be 
preceded by the requisite market impact analysis and Secretarial 
Determination that the transfers will not have an adverse material 
impact on the domestic uranium mining, enrichment, and conversion 
industries.


</pre></body></html>
